                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General

                                                 Office of Inspections
                                              Inspection of
                                   Embassy Bandar Seri Begawan, Brunei

                                             Report Number ISP-I-12-35A, June 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General (OIG) for
the U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

       •   Policy Implementation: whether policy goals and objectives are being effectively
           achieved; whether U.S. interests are being accurately and effectively represented; and
           whether all elements of an office or mission are being adequately coordinated.

       •   Resource Management: whether resources are being used and managed with
           maximum efficiency, effectiveness, and economy and whether financial transactions
           and accounts are properly conducted, maintained, and reported.

       •   Management Controls: whether the administration of activities and operations meets
           the requirements of applicable laws and regulations; whether internal management
           controls have been instituted to ensure quality of performance and reduce the
           likelihood of mismanagement; whether instance of fraud, waste, or abuse exist; and
           whether adequate steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



                               Table of Contents
Key Judgments                                           1
Context                                                 2
Executive Direction                                     3
Policy and Program Implementation                       6
   Political and Economic Affairs                       6
   Public Diplomacy                                     7
   Consular Affairs                                     9
Resource Management                                    11
   New Embassy Compound                                11
   Staffing Issues                                     11
   Regional Support                                    14
   Housing                                             16
   Support for Military Visits                         16
Information Management                                 16
Quality of Life                                        18
   Health Unit                                         18
   Schools                                             18
   Community Liaison Office                            19
Management Controls                                    20
   Management Section Controls                         20
   Consular Management Controls                        20
List of Formal Recommendations                         22
Informal Recommendation                                24
Principal Officials                                    25
Abbreviations                                          26




                                      iii
                          SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



Key Judgments
   •   Under the assured leadership of a strong Ambassador and deputy chief of mission
       (DCM), Embassy Bandar Seri Begawan’s small and relatively inexperienced staff is a
       productive and cohesive team. In areas such as trade, military-to-military relationships,
       and educational exchanges, the embassy is materially advancing the bilateral relationship.

   •   The front office effectively manages interagency coordination and communication,
       bringing together resident and nonresident staff in common pursuit of mission goals.

   •   American employees do multiple jobs and necessarily serve as backups to other
       colleagues, often with little training. Any absences and gaps strain the remaining
       American staff. The information management staff may need an additional position, and
       the political/economic/consular officer position should be made permanent.

   •   Brunei will chair the Association of Southeast Asian Nations (ASEAN) in 2013, placing
       additional stress on the staff as the embassy supports several high-level visitors.

   •   The Bureau of Overseas Buildings Operations (OBO) completed construction of a new
       small embassy in Bandar Seri Begawan in 2010 and considers this a model for future
       small embassies. The Office of Inspector General (OIG) team identified issues (some of
       which are discussed in the classified annex) that should be considered in designing and
       building future standard secure mini-compounds.




The inspection took place in Washington, DC, between January 3 and 27, 2012, and in Bandar
Seri Begawan, Brunei, between January 31 and February 9, 2012. (b) (6)




                                          1
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Context
        The Sultanate of Brunei is small, approximately the size of Delaware, and is wedged into
the northwest coast of the island of Borneo, bordering Malaysia. Ruled by the same royal family
for 600 years, Brunei enjoyed a golden age from the 15th to the 17th centuries; it grew rich on
services and tolls on trade between China and Southeast Asia, briefly controlling all of Borneo
and parts of the Philippines. In 1850, Brunei accepted a U.S. proposal to conclude a treaty of
peace, friendship, commerce, and navigation. The decline of the sultan’s power in the 19th
century, however, resulted in the establishment of a British protectorate in 1888, which lasted
until Brunei gained full independence in 1984. Brunei remains one of the world’s last countries
in which the monarch rules as well as reigns. The current sultan has ruled since 1967; he and his
family control all instruments of state power, pursuant to a state of emergency in effect since
1962. The royal family also wields enormous wealth from Brunei’s oil and gas resources, which
allow the country’s 414,000 residents to enjoy the region's highest standard of living after
Singapore. The largest ethnic groups are the Malay Muslims (66 percent of the population) and
the Chinese (11 percent).

        Brunei’s strategic location on the South China Sea, its importance as Southeast Asia’s
fourth largest exporter of oil and the world’s ninth largest exporter of liquefied natural gas, and
its potential as a contributor to international peace and stability efforts make this small country of
interest to the United States. Brunei plays a role in international organizations, including ASEAN
and the Organization of Islamic Cooperation. As chair of ASEAN in 2013, Brunei will host the
East Asia Summit (to which the President will be invited), the ASEAN Regional Forum
(normally attended by the Secretary of State), and other high-level meetings. The United States
seeks to support Brunei’s sustainable development, to bolster commerce and trade, strengthen
educational exchanges, and increase the participation of the Bruneian people in their
government. After a period of limited progress, bilateral relations strengthened—markedly in
late 2011—when Brunei agreed to purchase 12 Blackhawk helicopters, the Crown Prince visited
the United States, and the Brunei Government signed several agreements on educational
exchanges with U.S. universities. The increase in activity has generated hopes in the embassy of
more personnel resources, not just for the 2013 ASEAN year but beyond.

        Embassy Bandar Seri Begawan has 8 U.S. direct-hire Department employees and 64
locally employed (LE) staff. Representatives of the Department of Defense, the Foreign
Commercial Service, and other U.S. agencies are nonresident and provide regional support. The
total mission budget for FY 2011 was $3.3 million. Actual costs for operations in FY 2010
totaled $3.5 million. Brunei is not eligible to receive foreign assistance. OBO built a new
embassy building in Brunei, which opened in November 2010 and is the first standard secure
mini-compound built by OBO. The bureau plans to use this facility as a model for other small
embassy projects.




                                           2
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Executive Direction
        The Ambassador and DCM head a small, well-coordinated, and cohesive mission that is
making measurable progress in expanding the U.S. bilateral relationship with this wealthy and
strategically located Malay Islamic monarchy. The front office effectively connects the
nonresident representatives of other agencies, who visit periodically, to the eight-person resident
country team, composed entirely of Department personnel. Led by the Ambassador, excellent
communication and collaboration among the embassy, regional centers, the Washington
interagency community, and U.S. firms and universities produced notable advances in trade,
security cooperation, and educational exchanges with Brunei. In the embassy’s most outstanding
success, Sikorsky representatives commented that the 2011 sale of 12 Blackhawk helicopters to
the Bruneian military, a $325 million deal that will support 1,100 U.S. jobs, would not have been
possible without the embassy’s leadership.

        The Ambassador encourages frequent, lively, inclusive, and dissent-friendly debates on
mission objectives and strategy. This approach ensures staff buy-in and keeps the mission’s
assessment of its objectives and tactics fresh and current. Embassy personnel understand the
Ambassador’s priorities: a more robust security relationship with Brunei; successful commercial
and trade advocacy; increased educational exchanges; and a greater Bruneian contribution to
regional and international stability. Members of the country team commented approvingly to the
OIG team that mission goals are realistic, practical, and achievable. Employees understand and
are comfortable with their particular roles in meeting overall objectives. A comprehensive series
of cables in late 2011 updated the Department and the interagency community on progress
toward each mission target.

       Since his arrival in March 2011, the Ambassador has engaged Bruneian authorities across
a broad agenda, calibrating his approach and messages to the peculiar operating environment of a
hierarchical, protocol-bound, and largely opaque royal government. The Ambassador is an East
Asia expert whose personal experience in several of Brunei’s closest partners and neighbors—
Singapore, China, Japan, and the Philippines—add to his credibility with the Bruneians. His skill
in multiple Asian languages opens doors with the local diplomatic community as well as
Brunei’s Chinese minority. As inspectors observed in internal and external meetings, the
Ambassador’s background also gives him a regional point of view useful in keeping Brunei’s
importance and potential in perspective.

       The DCM, who spent 5 of his first 6 months at the embassy as chargé d’affaires between
ambassadors, served in two previous assignments in East Asia. As chargé, he supervised the
embassy’s November 2010 move from a downtown commercial site to the Department’s first
standard secure mini-compound, located on the outskirts of the capital.

        Mission employees see the Ambassador and DCM as excellent leaders unified in outlook
and practice and complementary in their skills. American staff members particularly appreciate
the Ambassador’s accessibility and affability, his well-defined vision and lucid instructions, and
his obvious interest in their professional and personal welfare. Embassy personnel described the
front office team as experts on substance, fair, open-minded, good listeners, responsive, and
generous with accolades. The willingness of the Ambassador and DCM to give section heads
                                           3
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


considerable freedom to manage their portfolios and staffs is welcomed as an empowering vote
of trust and confidence. The Ambassador’s weekly one-on-one meetings with each American
staff member, combined with the weekly encounter as the country team, provide regular
opportunities for give-and-take and emphasize to employees the Ambassador’s interest and
availability. The DCM’s parallel series of meetings serves the same purpose.

        The embassy maintains tight connections to other players in Bruneian affairs. The
Defense attaché, who is resident in Singapore, spends several days each month in Brunei. The
front office sees to it that other agency representatives who are responsible for Brunei meet the
Ambassador’s expectation of periodic visits at reasonable intervals. The embassy engages in an
active dialogue with the Bureau of East Asian and Pacific Affairs (EAP). The EAP Assistant
Secretary, the country office director, and the desk officer for Brunei all visited Bandar Seri
Begawan in the latter half of 2011. The front office has actively reached out to other agencies to
generate productive visits by high-level officials in such areas as energy and trade policy. The
Ambassador’s participation in trade missions has helped to pique U.S. commercial interest in
business opportunities in Brunei. The public affairs officer, who is in a new position in the
embassy, is starting to engage with the Bruneian Government and others to implement the U.S.
Partnership with ASEAN on English Language Education, a $25 million Brunei-funded program
to teach English to teachers and government officials in ASEAN countries.

        The front office has a good relationship with the LE staff, though the chancery relocation
and adaptation to a very different physical layout have generated (b) (5)
                         The Ambassador underlined his commitment to Equal Employment
Opportunity principles by sending an American officer to Equal Employment Opportunity
training and subsequently chairing a town hall meeting to promise zero tolerance for bullying.
The DCM has taken steps to ensure compliance with embassy working hours and norms.

        The initiative and activity of the embassy produces significant achievements but at a cost
of wear and tear on its limited staff. The OIG team heard several versions of the question: “How
many hats can one person wear?” The requirement to do multiple jobs and to serve as backup to
one or more colleagues—whether trained for that particular task or not—is a given for American
staff. The OIG team found officers and specialists genuinely enthusiastic about their work and
wanting to do their best, but stress is common. The prospect of the additional demands in 2013,
when Brunei will host the annual ASEAN summit and ancillary high-level international
meetings, is creating anxiety among some staff.

         The Ambassador is aware of the danger of burnout and understands that under present
budgetary conditions the mission is unlikely to receive more manpower, other than temporary
duty support for specific events in 2013. He discussed with the OIG team the need to keep
activities and goals within the scope of limited personnel resources. The OIG team does not
agree with the Ambassador that the embassy should include a resident Defense attaché,
particularly as all evidence indicates that the support from the Defense attaché office of Embassy
Singapore meets current needs. The team does support the Ambassador’s request, however, to
make the temporary entry-level political/economic/consular position permanent. A discussion of
this issue is in the Resource Management section of this report.


                                          4
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


        The front office’s training program for its sole entry-level officer is exemplary, both in
terms of the individualized attention given by the Ambassador and the DCM as well as the
breadth of the professional program. Despite the hardship of her absences, the front office has
encouraged the entry-level officer to take advantage of multiple opportunities for training and to
acquire experience in visits management. The result is an exceptionally well-rounded entry-level
officer prepared for a wide range of future responsibilities.

         The move to the new chancery solved security and other deficiencies of the old building.
(b) (5)                                                                The chancery is already
filled to capacity, leaving the embassy with few options for supporting temporary duty or other
help. The space issue will become an acute problem at several points during 2013, when the
embassy must support high-level visitors. In addition, moving the LE staff away from the
traditional offices they had enjoyed in the previous chancery to a large modular open space with
cubicles (b) (5)




                                          5
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Policy and Program Implementation
Political and Economic Affairs

        Most of the political and economic reporting and advocacy in Embassy Bandar Seri
Begawan is done by the Ambassador, the DCM, and the entry-level political/economic/consular
officer. Washington end-users routinely comment to the Department on the high quality and the
commendable volume of reporting from the embassy. In particular, they praise the embassy’s
reporting on Brunei’s domestic policies and its regional and global interests.

        The bilateral relationship continued to strengthen in 2011, especially in trade and security
cooperation. The visit of the Crown Prince to the United States in 2011, which included meetings
with the Secretary of State and other officials, helped to bolster the relationship. Visits by senior
U.S. military officers in 2011 improved personal ties to the Bruneian Armed Forces and
produced useful discussions on the expansion of joint exercises. When Brunei chairs ASEAN in
2013, high-level U.S. Government visitors, including possibly the President, should further
solidify the bilateral relationship.

        As discussed in the Management Resources section of this report, the OIG team believes
that the entry-level political/economic/consular position, which was established to help the
embassy through the year when Brunei chairs ASEAN, should be made a permanent component
of embassy staffing beyond 2015.

        The section includes two LE staff members. The political-military assistant has a variety
of tasks, including drafting reports based on open sources, helping to write mandatory reports
such as those on human rights and trafficking in persons, and coordinating logistics for a bilateral
military exercise. The LE commercial/economic assistant focuses primarily on promoting trade.
She works closely with the Foreign Commercial Service office in Embassy Singapore on trade
issues. She also is the protocol assistant and coordinates the embassy’s biographic reporting
program. In the latter capacity, she has made biographies of Bruneian Government officials
readily available to Washington end-users by placing them on the embassy intranet page.

        These two LE staff members report directly to the DCM, which was logical when the
DCM had direct responsibility for political/economic affairs. The political/economic/consular
officer is now responsible for those issues. She and the two LE staff members work closely
together on all aspects of the political-military and commercial/economic portfolios. For
example, she and the political-military assistant share in drafting required reports, such as
international religious freedom. The LE consular assistant, who works for the
political/economic/consular officer, coordinates with the political-military assistant on flight
clearances for U.S. military aircraft.

        The DCM and the political/economic/consular officer hold weekly meetings with the
political-military, commercial/economic, and consular assistants to coordinate work. This
coordination could work more seamlessly if the two LE staff members reported on a daily basis
to the political/economic/consular officer as their supervisor.

                                           6
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Recommendation 1: Embassy Bandar Seri Begawan should change the supervisory
relationships for the locally employed political-military assistant and the locally employed
commercial/economic assistant so that they are supervised directly by the
political/economic/consular officer. The embassy should also revise the position descriptions for
the two locally employed staff members and then reevaluate the grade levels of those positions.
(Action: Embassy Bandar Seri Begawan)

Public Diplomacy

         Embassy Bandar Seri Begawan has a small but effective public diplomacy program. In
the past, DCMs in Bandar Seri Begawan have acted as the public affairs officer, relying on a
talented LE staff member for the day-to-day running of public diplomacy operations. The OIG’s
2005 inspection report commended Brunei on its “robust” public diplomacy efforts. Department
interlocutors interviewed prior to this inspection similarly praised the public affairs section for its
skill in making the most of limited resources. The Bureau of Educational and Cultural Affairs,
for example, lauded Brunei’s management of the International Visitor Leadership Program for
maximizing its limited allocation by nominating candidates for programs that are centrally
funded (and thus not charged against the embassy’s allocation), submitting applications that were
always complete and on time, providing candidates with excellent predeparture briefings, and
participating in program design. The bureau also called Brunei a “cooperative and capable
partner” in the Southeast Asia Youth Leadership Program, which brings promising students
leaders to the United States for a 25-day program focusing on civic responsibility and civic
activism.

        In July 2011, the embassy welcomed the first incumbent of a new full-time public affairs
officer position, an FS-03 officer on her first overseas public diplomacy assignment. In her first 6
months on the job, this officer has faced start-up challenges: setting up a full-fledged public
affairs operation, including a foray into social media; establishing a productive supervisory
relationship with an LE staff member accustomed to running public diplomacy operations with a
high degree of independence; preparing an operating budget for the next fiscal year; meeting the
heightened expectations of an Ambassador and DCM eager to increase the mission’s outreach
efforts; acting as backup for political, economic, and consular operations; and assuming
responsibility for the embassy’s role in the Brunei-funded project to improve English teaching in
the ASEAN region.

        The new public affairs officer is struggling to meet this demanding agenda. Although she
has succeeded in some respects, a number of issues require attention. The most important relate
to section management, (b)(5)(b)(6)



        Prior to the arrival of the public affairs officer, the LE staff member was the embassy’s
“public diplomacy coordinator.” She reported directly to the DCM and her job, according to her
position description, involved “day-to-day running of the embassy’s public affairs section” and
“acting as the post’s public affairs representative.” The public affairs officer now has those
responsibilities and is the supervisor of the LE staff member. The latter’s position description is

                                            7
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


now outdated and Embassy Singapore (which provides human resources support for Embassy
Bandar Seri Begawan) will need to decide whether the grade level of the position needs to be
reevaluated once the position description has been updated.

Recommendation 2: Embassy Bandar Seri Begawan, in coordination with Embassy Singapore,
should make necessary changes to the position description of the locally employed public
diplomacy coordinator position and determine whether a reevaluation of the appropriate grade
level for the position is warranted. (Action: Embassy Bandar Seri Begawan, in coordination with
Embassy Singapore)

Grants Management

        The embassy did not have a warranted grants officer prior to the arrival of the public
affairs officer. Public affairs staff at Embassy Singapore signed all public diplomacy grants for
Brunei. These grants can now be signed in Brunei, although the financial management officer in
Singapore must still certify the availability of funds.

        Grants files are maintained both in Embassy Bandar Seri Begawan and in Embassy
Singapore. The OIG team examined a random selection of the files in Embassy Bandar Seri
Begawan and found that many did not meet closeout requirements. Some lacked necessary
receipts or were otherwise incomplete. The major reason for this oversight appears to be that
individuals in Brunei acting as grants officer representatives never had the proper training and
did not clearly understand all documentation requirements. Under the guidance of the public
affairs officer, the section has begun to address these deficiencies and slow but steady progress is
being made. To ensure the process continues, it makes sense for the section’s LE staff member to
take grants training, which is available online. Responsibility for acting as the grants officer
representative should then be reflected in her revised position description.

       Informal Recommendation 1: Embassy Bandar Seri Begawan should arrange for the
       locally employed staff member in the public affairs section to receive online grants
       training.

Public Affairs Section Staffing

       Some in the Department questioned whether an embassy as small as Embassy Bandar
Seri Begawan requires a full-time American public affairs officer. The Ambassador and the
DCM argue that having an American public affairs officer enables the embassy to take advantage
of multiple new opportunities. They are especially eager to have a knowledgeable American
presence speak for U.S. Government interests in implementation of the $25 million ASEAN
English-language initiative funded by the Bruneian Government, and to capitalize on the host
government’s interest in dramatically expanding the number of Bruneian students studying in the
United States.

        The OIG team believes the public affairs officer position is providing value and should be
retained. The team does not agree, however, with the embassy’s desire to increase the number of
LE staff in the public affairs section from one to four. The Bureau of Educational and Cultural

                                           8
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Affairs is considering temporary funding for a locally hired educational advisor in Brunei, with
the understanding that the future cost for the position would be part of the embassy’s base
budget. If the creation of the position results in doubling or tripling the number of Bruneians
studying in the United States and the adviser can be based at a location outside the chancery that
is more convenient for the clientele, the position may well be justified and may even pay for
itself. If not, the public affairs section would be better off relying on more frequent visits by the
regional educational advising coordinator based in Kuala Lumpur.

        The size of the public affairs section doubled with the arrival of an American officer.
Additional expansion may be possible in the future, but given current budget constraints and the
physical limits on office space in the chancery building such expansion is not currently justified.
Brunei is too small, its media and educational universe too limited, and the competing need for
positions in other sections of the embassy are too great.

Language Designated Public Affairs Position

        The public affairs officer position is the only language designated position in the
embassy. The position is designated as 3/3 in Malay. Prior to coming to Brunei, the public affairs
officer received 9 months of Malay language training but rarely uses Malay in her interactions
with media or educational contacts. Most Bruneians speak excellent English. According to the
Foreign Affairs Manual (13 FAM 221 b.), only those positions where language proficiency is
essential, rather than merely helpful or convenient, should be designated. This position (number
60333402) does not meet that criterion.

Recommendation 3: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Human Resources, should remove the Malay language designation from the position
of public affairs officer at Embassy Bandar Seri Begawan. (Action: EAP, in coordination with
DGHR)

Consular Affairs

        The small consular section, with one part-time consular officer and one LE consular
assistant, is doing an excellent job. The nonimmigrant visa workload is light, with approximately
1,000 applications in FY 2011. Brunei was admitted to the visa waiver program in 1993 as the
third Asian participant. The majority of applicants are Bruneian Government officials, Bruneians
who are travelling under the sponsorship of the Bruneian Government (such as students), or third
country nationals who live and work in Brunei. The refusal rate is low. Embassy Singapore
performs immigrant visa services for applicants living in Brunei.

        The American citizens services workload is also low. The 210 American citizens
estimated to be living in Brunei are primarily involved in the oil and gas industries and generally
do not need embassy assistance except for passport and citizenship services and notarial services.
In 2011, the embassy assisted an elderly American woman who had become sick on a cruise ship
and was hospitalized in Bandar Seri Begawan. Apart from that case, there have been no
significant problems in special consular services recently. No American citizens have been
arrested in Brunei in the last several years.

                                           9
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Regional Consular Support

        As a small consular section, the embassy is dependent on the advice and expertise of
more senior consular officers located elsewhere. The embassy is pleased with the support from
the regional consular officer in Embassy Bangkok and the consular section in Embassy
Singapore.

        The regional consular officer in Embassy Bangkok visits Brunei twice a year to review
operations and management controls and provides to embassy leaders and the Department a
written report that includes recommendations to correct problems. The new regional consular
officer in Bangkok visited Brunei in January 2012 and provided a detailed written report. He
noted as a problem the issue of the Class B cashier serving as the consular cashier. This issue,
which had also been identified by the OIG team, is discussed in the Management Controls
section of this report.

      In addition, Embassy Bandar Seri Begawan has a memorandum of agreement with
Embassy Singapore for consular support. Embassy Singapore provides advice on individual
American citizens services and nonimmigrant visa cases and the consular section chief in
Singapore visits Bandar Seri Begawan twice a year for consultations.

        Embassy Manila has been screening Embassy Bandar Seri Begawan’s nonimmigrant visa
applications for fraud indicators because Embassy Bandar Seri Begawan lacks the necessary
expertise. This service is being transferred to Embassy Singapore, which should allow for greater
efficiencies as the consular section in Bandar Seri Begawan already works so closely with
Singapore on other consular issues. Once this transfer has been made, Embassy Singapore will
be providing all support to Embassy Bandar Seri Begawan on consular issues except for the
advice and guidance provided by the regional consular officer in Embassy Bangkok.

Staffing Issues

        The Resource Management section of this report addresses a major issue for the
embassy—the lack of a permanent officer position to provide unified oversight of the consular
section.

Visas Viper

       The embassy is fulfilling its obligations under the Visas Viper program. (b) (5)




                                          10
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



Resource Management
Staffing

   U.S. Direct-Hire       Local Staff       Local Guards           Total

            8                 22                  42                 72

Funding FY 2012

  Program       Public Affairs Diplomatic Security      OBO        Total

 $1,692,725       $141,750          $407,318           $423,981 $2,665,774

New Embassy Compound

        In November 2010, Embassy Bandar Seri Begawan moved from a long-term leased space
in a commercial building downtown to the new embassy compound on the outskirts of the city.
The new small embassy is the first of its kind that OBO has built. It has deficiencies and
anomalies that may need attention in future iterations (these are more fully detailed in the
classified annex to this report).

         OBO has not paid attention to significant water problems in the new embassy compound.
The puddles that form after Brunei’s frequent rainstorms do not drain away from the walkway
that provides access to the chancery building. The pavers become very slippery and cracks in the
bonding material are forming. Worse is the pooling of water in the manholes. In one manhole, it
is clear that electrical conduit runs are submerged constantly under water. OBO did not install
sump pumps. The OIG team observed a manhole filled with at least 4 feet of water covering
several electrical conduits, creating a potentially hazardous condition.

Recommendation 4: The Bureau of Overseas Buildings Operations should provide water
mitigation improvements at Embassy Bandar Seri Begawan. (Action: OBO)

Staffing Issues

        Staffing in the management section is minimal but sufficient to complete work
requirements. Each employee provides backup to at least one other employee. For example, the
receiving and inventory clerk also supervises the motor pool, provides expeditor services, and
frequently serves as an incidental driver. The LE staff member hired to fill a facilities
management role was in training during the inspection. He will have three maintenance
assistants.

        Until this inspection, the Class B cashier was also the consular cashier. The Management
Controls section of this report addresses this issue. Separating those two responsibilities will
provide better internal controls and free the employee to become a backup for another vital
service.
                                         11
                             SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED



           The eligible family member serving as the general services assistant believes that the
   position needs continuity and an adequately trained employee. If no qualified eligible family
   member applies for the position of general services assistant when the incumbent leaves, the
   embassy should fill the position with a locally employed staff member.

   Political/Economic/Consular Officer Position

           The Department created the entry-level political/economic/consular officer position
   (position number 10-010101) in 2010 to help the embassy meet its added responsibilities during
   Brunei’s chairmanship of ASEAN, which was expected to occur in 2011. Subsequently, Brunei
   and Indonesia traded calendar years for chairing ASEAN. As a result, Brunei will chair ASEAN
   in 2013, and the Department has extended the political/economic/consular officer position for
   another assignment cycle. EAP has not yet decided to keep the position in Bandar Seri Begawan
   beyond 2015.

           Before 2011, consular work was split between the DCM, who performed American
   citizens services, and the management officer, who performed nonimmigrant visa services. Both
   officers did what they could to carry out their consular duties conscientiously, but the
   arrangement was unsatisfactory. They found it difficult to divide their attention between their
   other full-time duties and the consular section. Splitting American citizens services and
   nonimmigrant visa duties meant that neither officer had oversight of the entire consular
   operation.

           Consular management regulations in the Foreign Affairs Handbook (7 FAH-1 H-642)
   state: “The most important consular management control is active supervision by consular
   managers at each level over the areas under their responsibility. Supervision requires presence
   and awareness of operations and cannot be exercised effectively from a distance. Oversight often
   should be literal as when a supervisor’s office overlooks the work area.” (b) (5)
(b) (5)




         The political/economic/consular officer and the regional consular officer from Embassy
   Bangkok have tightened consular management controls (b) (5)

                                                    Such attention to detail is much more feasible
   when one officer can pay full attention to managing the consular section.

           The OIG team found that the political and economic dimension of this position provides a
   vital addition to the reporting output and the outreach of the embassy. Without this part-time
   service, there is no surge reporting capacity in an embassy where the only other reporting
   officers are in the front office. The entry-level officer’s supervision of mandatory reporting on
   issues such as trafficking in persons allows the Ambassador and the DCM to concentrate on

                                             12
                                 SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


other matters. While it is not possible to draw a direct connection to the arrival of the incumbent
political/economic/consular officer, it is noteworthy that Washington end-users have praised the
quality and volume of recent embassy reporting. The embassy would benefit from retaining the
political/economic/consular officer position as a permanent addition to the staffing of the
embassy.

Recommendation 5: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Human Resources, should make a determination on whether to permanently retain the
political/economic/consular officer position in Embassy Bandar Seri Begawan beyond 2015.
(Action: EAP, in coordination with DGHR)

Motor Pool Operations

        The embassy has two vehicle drivers—the Ambassador’s driver and a driver for general
purposes. The OIG team reviewed motor pool records and determined that these drivers are
frequently on duty in excess of 10 hours daily and often work 7 days a week. These long hours
are hazardous not only for driver safety but also for vehicle occupants. Guidance in 14 FAM
432.4 c.(3) requires posts to ensure that overtime duty hours for chauffeurs and incidental
operators do not exceed limits prescribed in the motor vehicle safety management program. Item
7 of the motor vehicle safety management program’s summary states that “…overtime must be
limited to allow drivers 8 hours of sleep prior to each day of duty. Generally, this means that
duty time (total work shift duration, not driving time) must be limited to 10 hours/day.”

        The embassy is especially dependent on motor pool drivers for official business because
alternatives are limited in Bandar Seri Begawan. The embassy is located on the outskirts of the
small capital. Public taxis are unreliable and often unavailable. The city does not have an
effective mass transit system.

        Embassy Bandar Seri Begawan needs two additional drivers in order to implement a shift
work scheme and have more than one driver provide services for the Ambassador. With
additional drivers, one could serve as dispatcher, thus relieving the receiving clerk from
dispatching duties and the work order clerk from scheduling motor pool activities. Those
employees are distracted from their primary duties by these work requirements. Finally, the use
of untrained incidental drivers would be reduced.

Recommendation 6: The Bureau of East Asian and Pacific Affairs, in coordination with
Embassy Bandar Seri Begawan, should approve the addition of two locally employed driver
positions in the embassy. (Action: EAP, in coordination with Embassy Bandar Seri Begawan)

Information Management

       The information management officer provides vital information management services.
The Ambassador’s office management specialist is the designated backup to the information
management officer. Given the complexities of running an information management section,
even in a small embassy, the office management specialist is challenged to manage the tasks
associated with those responsibilities. The information management officer has one LE staff

                                          13
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


member supporting him. The OIG team believes that a good case can be made to justify hiring an
American citizen locally who could receive a security clearance and serve as an information
management assistant. Embassy managers believe there is a sufficient pool of qualified
applicants for such a position among American citizens living in Brunei. The embassy has not
formally requested an information management assistant position or documented its need for the
position.

Recommendation 7: Embassy Bandar Seri Begawan should develop quantitative evidence
documenting the need for an information management assistant position and use that
documentation to request the position in the next Mission Resource Request. (Action: Embassy
Bandar Seri Begawan)

Regional Support

       In November 2005, Embassy Bandar Seri Begawan and Embassy Singapore signed a
memorandum of agreement specifying what level of level of support Embassy Singapore would
provide. Included in the memorandum were financial management, facilities management, and
general services, along with information management and consular services. These services were
intended to supplement Embassy Bandar Seri Begawan’s limited resources. The exact levels
would be determined depending on circumstances and resources at each mission.

         The memorandum has not been reviewed or updated in the last 7 years and does not
reflect the move to the new chancery, which has changed service requirements. Embassy
Singapore staff members informed the OIG team that they are updating the memorandum to
reflect new responsibilities.

Financial Management

       The memorandum states that Embassy Singapore will assume all responsibility for
accounting, vouchering, certifying funds, and obligations. Data would be held in Singapore, and
Singapore staff would visit Brunei semiannually at Embassy Bandar Seri Begawan’s expense.
Embassy Bandar Seri Begawan would perform cashiering and time and attendance duties.

        Since then, Embassy Bandar Seri Begawan has begun to use the Department’s financial
management systems, including the Consolidated Overseas Accountability Toolbox System and
the requisitions and obligations elements of the Integrated Logistics Management System.
Embassy Bandar Seri Begawan’s budget and fiscal local employee is adept at using these
systems. She manages the embassy’s budget, including the ability to check for, but not certify,
funds availability. Vouchers are sent to Embassy Bangkok’s post support unit for processing.
The receiving clerk, however, cannot see the purchases and does not yet have access to the asset
management function that assists with receiving and inventory control.

General Services Operations

       In accordance with the 2005 memorandum, Embassy Singapore would provide leasing
services for Embassy Bandar Seri Begawan; it does not. Embassy Bandar Seri Begawan does its

                                          14
                              SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


own leasing and lease waiver requests and maintains its real property application. Additionally,
Embassy Singapore does not maintain Embassy Bandar Seri Begawan’s furniture pool. Embassy
Bandar Seri Begawan also provides its own nonexpendable property management. The staff at
Embassy Bandar Seri Begawan was preparing purchase orders but not entering them into the
Integrated Logistics Management System.

        Embassy Singapore’s financial management and senior general services officers visited
the embassy during the OIG inspection. They are training the staff to fully implement the
Integrated Logistics Management System. These actions will ensure proper receiving and asset
management data is available in the system and allow the embassy to follow procurements from
request to distribution, as intended. This change will eliminate the present use of paper forms and
repeated data entry processes in Brunei and Singapore.

Recommendation 8: Embassy Bandar Seri Begawan should request that Embassy Singapore
change its status as a procurement requestor and fully implement the Integrated Logistics
Management System. (Action: Embassy Bandar Seri Begawan)

       Embassy Singapore provides contracting support for purchases over $3,000. As
warranties on the new embassy expire, many expensive contracts and blanket purchase
agreements are needed. These contracts are awarded appropriately by Embassy Singapore, which
has experienced local staff.

       At the time of the inspection, the management officer in Bandar Seri Begawan did not
have a contracting officer’s warrant. This deficiency could have created problems if and when
emergencies, such as plumbing failures, occurred during after-hours and it was impractical for
the management officer to get purchasing authorization in a timely manner from Embassy
Singapore. The potential for an embassy emergency, an unauthorized commitment, or an
Antideficiency Act of 1982 1 violation demonstrates a need for the management officer to be
granted a $25,000 contracting officer’s warrant. The Office of the Procurement Executive of the
Bureau of Administration granted the management officer a $25,000 contracting warrant in
March 2012.

Human Resources

         Although human resources support is not specified in the 2005 memorandum of
agreement, a separate memorandum detailing such support is in draft and is being cleared by the
parties involved. Embassy Singapore provides American human resources services and
Computer-Aided Job Evaluation services for LE staff, who are concerned that decisions
regarding job classifications are made sometimes without consulting them. Some LE staff
members told the OIG team they would welcome more face-to-face relationships with
Singapore’s human resources officer. The draft agreement addresses the issue of the frequency of
visits to Brunei by the human resources officer.


1
 31 USC 1301 - An expenditure of funds in violation of a condition or internal cap in an appropriations act would
generally constitute a violation of the Antideficiency Act of 1982.

                                               15
                                   SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Housing

       American staff occupies stand-alone housing that is attractive and meets space standards.
There are two apartments that are equally spacious and adequate.

        The U.S. Government has leased the chief of mission residence for the last 17 years. The
current cost is $141,620 annually. With the new embassy compound situated on the opposite side
of town, the 12-mile commute often takes over an hour, both morning and evening. Rush hours
are hectic because roads are essentially single lanes in each direction. The Ambassador’s invited
guests often decline invitations, given the distance from their homes. Luncheons are out of the
question. The few closets and cabinets in the chief of mission residence mean that groceries are
kept outside of closed doors, inviting insect infestation. Given these problems, the OIG team
endorses the embassy’s search for an alternate chief of mission residence.

Support for Military Visits

        A large number of U.S. military ships and aircraft frequently visit Brunei. Ground
support needs for these visits include refueling, cargo loading equipment, hotel reservations,
local transportation, and customs clearances. The most significant burden these visits place on
Embassy Bandar Seri Begawan is the need for refueling and for ground services for these ships
and aircraft.

        The workload to support the refueling and ground services falls on embassy staff because
there is no contract in place to provide this assistance. Formerly, Embassy Singapore’s Defense
attaché office had a contract with a local Bruneian company to provide the ground services and
the Defense attaché office dealt appropriately with fuel bills. That contract has expired and
military visitors currently believe that they can use a credit card to purchase fuel; however, fuel
stations in Brunei are not equipped to handle credit cards of any type. Therefore, Royal Brunei
Shell, the fuel supplier, bills Embassy Bandar Seri Begawan approximately $250,000 annually.
Embassy Bandar Seri Begawan forwards the fuel bills to the Defense Logistics Agency in
Washington but has no way of knowing if or when the bills have been paid or if they are
accurate. Its only assurance that the bills are being paid is that it does not receive repeat billing.
The embassy does not have a resident Department of Defense representative, so costs associated
with this support comes out of the embassy’s program funds. Supporting these services creates
unnecessary work for the embassy.

Recommendation 9: Embassy Bandar Seri Begawan, in coordination with Embassy Singapore,
should request that Embassy Singapore’s Defense attaché office make contracting arrangements
with local vendors for ground services and refueling to support U.S. military visits to Brunei.
(Action: Embassy Bandar Seri Begawan, in coordination with Embassy Singapore)

Information Management

       An experienced, energetic information management officer effectively runs a computer
network that supports 70 users. Embassy employees reported a high level of satisfaction with
information management services and support. The information management unit is up-to-date

                                           16
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


on all systems and standard operating procedures. One LE staff member, soon to retire, provides
unclassified system support. Pouch, system, and physical security issues are covered in the
classified annex of this report. However, the new telephone system, which is the first installation
of its type in an embassy, is not meeting customers’ needs. The embassy is losing calls and does
not have a telephone operator or an operator console. The embassy has notified the Regional
Information Management Center in Bangkok, which is working on this issue.

Recommendation 10: The Bureau of Information Resource Management, in coordination with
the Regional Information Management Center in Bangkok, should implement a technical
solution that will resolve the problem of dropped calls with the telephone system of Embassy
Bandar Seri Begawan. (Action: IRM, in coordination with RIMC Bangkok)

       The Staffing Issues section of this report addresses a need to provide improved backup
support for the information management officer.




                                          17
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Quality of Life
        Morale among the eight U.S. direct-hire staff is high; they are collegial and support each
other well. Given the small staffing and backup requirements, the degree of cooperation is worth
noting. There is no recreation association and no need for one. Food in the local markets is
plentiful and internationally sourced. The general services assistant is conducting a retail price
survey and a differential report has just been completed. The embassy does not anticipate a
change to the 15 percent differential. The embassy recently selected and trained an Equal
Employment Opportunity counselor and all Equal Employment Opportunity information is
properly displayed on an accessible bulletin board.

        Some LE staff members did not welcome the move to the new chancery because its
location on the outskirts of the capital is inconvenient and isolated. (b) (5)

                                                               Other LE staff members believe the
new building is a better working environment.

        Efforts to establish a local staff committee were not successful and presently there is no
will to establish one. The Ambassador’s new well-being committee, which includes American
and LE staff, has yet to define its role.

Health Unit

        The embassy does not have a health unit. Hospitals and medical care in Bandar Seri
Begawan are considered adequate, and American employees do not complain about local
medical treatment or facilities. Embassy Jakarta provides regional medical support, Embassy
Bangkok provides regional medical psychiatric support, and Embassy Singapore provides
medical evacuation support. The regional medical officer has visited Bandar Seri Begawan three
times since 2010. When more than routine support has been needed, Embassy Jakarta’s regional
medical officer has kept in close touch with local health officials and worked with the embassy
to approve medical evacuation to Singapore. First aid kits are available outside of the safe haven.

        There is designated space for a health unit in the new chancery. However, the embassy
plans to designate the space for other use, given the overall lack of space in the chancery and
infrequent medical visits. Other locations for the use of visiting medical personnel will be
designated as necessary.

Schools
       (b)(5)(b)(6)



                                   The OIG team did not hear any complaints about the local
schools. The Office of Overseas Schools last visited Brunei schools in 2008.


                                          18
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Community Liaison Office

        The embassy has no overriding need for a community liaison office. Few eligible family
members wish to work at the embassy either full-time or part-time. The duties of a community
liaison office coordinator fall to the management officer who handles them well. The chancery
does not have a private space required for a community liaison office. Given these factors, the
OIG team understands why there is no community liaison office in the embassy. The OIG team
discussed with embassy managers the possibility of employing a locally resident American for
this function, but the funding would have to come out of a shrinking post budget. The OIG
recommendations in other sections of this report for personnel increases are higher priorities.




                                         19
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Management Controls
Management Section Controls

       The Ambassador’s 2011 Statement of Assurance of Management Controls provided
reasonable assurance that management controls met requirements, assets were properly
safeguarded, obligations and costs complied with applicable law, revenues and expenditures
were recorded properly, and programs were efficiently and effectively carried out in accordance
with law and management policy. No weaknesses were noted.

Warehousing and Inventory Controls

        The lack of storage facilities on the new embassy compound creates the potential for
inventory control problems. Plans for Embassy Singapore to provide regional procurement
support were predicated on supplies and nonexpendable items being purchased and shipped on a
just-in-time basis. As there is no warehouse, there is no simple method to inventory goods that
are not in use.

       OBO never planned to construct a warehouse on the new compound. Embassy Bandar
Seri Begawan uses the storage facilities at the transshipper’s warehouse, paying a demurrage
charge of approximately $12,000 annually. Goods stored there have not been formally received
and the inventory information has not been recorded. It is not possible to conduct an inventory
on these items. Further, the few goods that are kept in utility buildings at the rear of the new
embassy compound are subject to wet and moldy conditions The OIG team supports the
embassy’s current plans to request a functional lease waiver for a warehouse, estimated to cost
$27,600 annually.

Consular Management Controls

Consular Cashier Duties

         The Class B cashier, a management section employee, is also the consular cashier. In the
latter capacity, the employee is responsible for the collection and accounting of consular fees. In
FY 2011, the embassy collected (b) (5) in consular fees. Consular management regulations in 7
FAH-1 H-734.1 state that the accountable consular officer must designate in writing, with
approval of the financial management officer, a consular section employee as a subcashier for
collection of consular fees. While this provision does not explicitly state that the consular cashier
and the Class B cashier should be different people, the wording is clear that the consular cashier
should be a consular section employee. The Class B cashier works for the management officer,
not the consular officer.

        The current arrangement means that the consular officer does not have supervisory
authority over an employee who is performing an important consular function. This was less of
an issue in the past when the management officer was responsible for nonimmigrant visa services
and the DCM was responsible for American citizens services.

                                          20
                              SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


            The accountable consular officer, who is the DCM, and the financial management officer
    in Embassy Singapore have not designated the LE consular assistant as the consular cashier. As
    noted above, a consular section employee should be designated as consular cashier. The consular
    assistant is the sole LE staff member in the consular section. The information management LE
    staff member is the backup consular cashier.

    Recommendation 11: Embassy Bandar Seri Begawan, in coordination with Embassy Singapore,
    should provide appropriate training in consular cashiering to the locally employed consular
    assistant and designate that employee as consular cashier. (Action: Embassy Bandar Seri
    Begawan, in coordination with Embassy Singapore)
(b) (5)




    Recommendation 12: (b) (5)



    Visa Referrals

            Embassy officers have made no visa referrals in the past year. Visa referrals are made for
    visa applicants of interest to the U.S. Government, most commonly to assist them to obtain
    expedited visa appointments. The lack of referrals in Bandar Seri Begawan is appropriate given
    that the embassy does not have a backlog in visa appointments.

    Other Consular Management Controls

            The political/economic/consular officer, the LE consular assistant, and the DCM (who is
    the accountable consular officer) carefully adhere to all consular management controls. The
    political/economic/consular officer is working closely with the more experienced officers who
    provide regional consular support to dispose of outdated accountable consular items.




                                             21
                                 SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



List of Formal Recommendations
Recommendation 1: Embassy Bandar Seri Begawan should change the supervisory
relationships for the locally employed political-military assistant and the locally employed
commercial/economic assistant so that they are supervised directly by the
political/economic/consular officer. The embassy should also revise the position descriptions for
the two locally employed staff members and then reevaluate the grade levels of those positions.
(Action: Embassy Bandar Seri Begawan)

Recommendation 2: Embassy Bandar Seri Begawan, in coordination with Embassy
Singapore, should make necessary changes to the position description of the locally employed
public diplomacy coordinator position and determine whether a reevaluation of the appropriate
grade level for the position is warranted. (Action: Embassy Bandar Seri Begawan, in
coordination with Embassy Singapore)

Recommendation 3: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Human Resources, should remove the Malay language designation from the position
of public affairs officer at Embassy Bandar Seri Begawan. (Action: EAP, in coordination with
DGHR)

Recommendation 4: The Bureau of Overseas Buildings Operations should provide water
mitigation improvements at Embassy Bandar Seri Begawan. (Action: OBO)

Recommendation 5: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Human Resources, should make a determination on whether to permanently retain the
political/economic/consular officer position in Embassy Bandar Seri Begawan beyond 2015.
(Action: EAP, in coordination with DGHR)

Recommendation 6: The Bureau of East Asian and Pacific Affairs, in coordination with
Embassy Bandar Seri Begawan, should approve the addition of two locally employed driver
positions in the embassy. (Action: EAP, in coordination with Embassy Bandar Seri Begawan)

Recommendation 7: Embassy Bandar Seri Begawan should develop quantitative evidence
documenting the need for an information management assistant position and use that
documentation to request the position in the next Mission Resource Request. (Action: Embassy
Bandar Seri Begawan)

Recommendation 8: Embassy Bandar Seri Begawan should request that Embassy Singapore
change its status as a procurement requestor and fully implement the Integrated Logistics
Management System. (Action: Embassy Bandar Seri Begawan)

Recommendation 9: Embassy Bandar Seri Begawan, in coordination with Embassy
Singapore, should request that Embassy Singapore’s Defense attaché office make contracting
arrangements with local vendors for ground services and refueling to support U.S. military visits
to Brunei. (Action: Embassy Bandar Seri Begawan, in coordination with Embassy Singapore)


                                         22
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Recommendation 10: The Bureau of Information Resource Management, in coordination with
the Regional Information Management Center in Bangkok, should implement a technical
solution that will resolve the problem of dropped calls with the telephone system of Embassy
Bandar Seri Begawan. (Action: IRM, in coordination with RIMC Bangkok)

Recommendation 11: Embassy Bandar Seri Begawan, in coordination with Embassy
Singapore, should provide appropriate training in consular cashiering to the locally employed
consular assistant and designate that employee as consular cashier. (Action: Embassy Bandar
Seri Begawan, in coordination with Embassy Singapore)

Recommendation 12: (b) (5)




                                         23
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED



Informal Recommendation
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Bandar Seri Begawan should arrange for the locally
employed staff member in the public affairs section to receive online grants training.




                                        24
                            SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



Principal Officials
                                                            Name      Arrival Date
Ambassador                                    Daniel L. Shields III          03/11
Deputy Chief of Mission                      Alexander L. Barrasso           09/10

Chiefs of Sections
  Administrative                                      Paul E. Brand         08/11
  Political/Economic/Consular                           Christin Ho         01/11
  Public Affairs                             Deidra D. Avendasora           07/11
  Regional Security                         Francis (Buddy) Carroll         08/10




                                      25
                          SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED



Abbreviations
ASEAN           Association of Southeast Asian Nations

DCM             Deputy chief of mission

Department      Department of State

EAP             Bureau of East Asian and Pacific Affairs

FAH             Foreign Affairs Handbook

FAM             Foreign Affairs Manual

LE              Locally employed

OBO             Bureau of Overseas Buildings Operations

OIG             Office of Inspector General




                            26
                SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
